AUDIT OF THE FEDERAL BUREAU OF
 INVESTIGATION LABORATORY’S
 FORENSIC DNA CASE BACKLOG

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 12-39
           September 2012
    AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION
      LABORATORY’S FORENSIC DNA CASE BACKLOG

                              Executive Summary

      This report is a follow-up to the U.S. Department of Justice Office of
the Inspector General’s (OIG) August 2010 review of the Federal Bureau of
Investigation (FBI) Laboratory’s progress in reducing the overall forensic
DNA case backlog. 1 We previously reported that as of March 2010, the FBI
Laboratory had a total forensic DNA case backlog of 3,211 cases. In this
audit we determined that, as of March 2012, the FBI Laboratory significantly
reduced its total forensic DNA case backlog to 403 cases, as shown in
Exhibit 1.

    EXHIBIT 1: NUMBER OF CASES IN THE FORENSIC DNA CASE
   BACKLOG BY QUARTER FOR FYs 2009 – SECOND QUARTER 2012




Source: The FBI Laboratory, Nuclear and Mitochondrial DNA Units’ case management
systems
     The FBI’s forensic DNA backlog is comprised of cases in the Nuclear
and Mitochondrial DNA Units. Nuclear DNA analysis may generate a DNA

       1
         U.S. Department of Justice Office of the Inspector General, Review of the Federal
Bureau of Investigation Laboratory’s Forensic DNA Case Backlog, Report 10-39
(August 2010).
profile sufficiently rare to be associated to a single individual within a
reasonable degree of scientific certainty. In contrast, because mitochondrial
DNA is maternally inherited, multiple individuals can have the same
mitochondrial DNA profile, and unique identifications are not possible.
However, mitochondrial DNA analysis can often generate a DNA profile from
evidence that may not be suitable for nuclear DNA examinations, such as
highly degraded bone fragments, teeth, and hair.

       We found that the decrease in the FBI Laboratory’s forensic DNA case
backlog can be primarily attributed to automation efforts and additional
personnel in the Nuclear DNA Unit. The Nuclear DNA Unit’s backlog
decreased from 2,722 cases in March 2010 to 110 cases as of March 2012,
thus effectively eliminating the backlog. The 110 cases in the Nuclear DNA
Unit as of March 2012 are now considered a monthly work-in-process. We
concluded that the effective elimination of the backlog by the Nuclear DNA
Unit is a significant achievement.

       Our prior review revealed that the backlog in the Mitochondrial DNA
Unit was not as large as the Nuclear DNA Unit’s backlog; however, we note
that the unit continues to have a backlog. The number of cases in the
Mitochondrial DNA Unit’s backlog decreased from 489 cases in March 2010
to 293 cases as of March 2012. We found that rather than an increase in
the number of cases completed, the decrease in the Mitochondrial DNA
Unit’s backlog can be attributed to the unit’s revision to its calculation of
backlogged cases and changes to the unit’s Terrorist Explosive Device
Analytical Center (TEDAC) case acceptance policy, which reduced the
number of cases submitted to the unit.

      According to the FBI, historical TEDAC submissions for mitochondrial
DNA examinations included all hairs identified on improvised explosive
devices and the Mitochondrial DNA Unit would provide analysis on every
sample submitted. However, the FBI told us that there have been no
documented instances for which probative results were generated from
these mitochondrial DNA examinations. As a result, the Mitochondrial DNA
Unit worked together with TEDAC to revise the unit’s case acceptance policy
so that new submissions to the unit are more likely to yield probative
information. As a part of this revision, the Mitochondrial DNA Unit
discontinued approximately 300 TEDAC submissions from its backlog. 2 While
it appears to be appropriate to not routinely conduct mitochondrial DNA
examinations in cases that are highly unlikely to generate probative results,
we note that the decision not to conduct examinations in these type of cases

      2
         The FBI Laboratory currently maintains all submissions to TEDAC, and, if needed,
could analyze older submissions for mitochondrial or nuclear DNA analysis.


                                            ii
accounts for the majority of the decrease in the Mitochondrial DNA Unit’s
backlog beginning in the first quarter of 2011.3

       We also found that the length of time it takes evidence to be
processed in other case working units before entering either the Nuclear
DNA Unit or the Mitochondrial DNA unit appears to be increasing. We
believe the implementation of a laboratory information management system
will provide the FBI Laboratory with the information necessary to identify the
cause of any unnecessary delays.

      We previously reported that the FBI Laboratory did not have a
laboratory information management system capable of electronically
managing laboratory operations. As of June 2012, the FBI Laboratory still
lacked this capability, despite having spent at least $14 million since 2003 in
two unsuccessful attempts to develop and implement a laboratory
information management system. The FBI Laboratory is in the preliminary
stages of developing a new laboratory information management system.

      Our report makes one recommendation to assist the FBI in the
successful implementation of a laboratory information management system.
The following sections of our report contain detailed information on the full
results of our audit.




       3
           In a related matter, the FBI Laboratory is working with the FBI Office of General
Counsel, the Department of Justice, the Innocence Project, and others to prepare a plan for
the review of historical cases involving microscopic hair examinations. This plan is not yet
finalized, but should DNA examinations be requested and certain conditions are met, the FBI
has stated that it is available to provide mitochondrial DNA testing on the relevant hair
evidence. According to the FBI Laboratory, until a plan is finalized and DNA examinations
are requested, it would be impossible to estimate the effect that this review might have on
the Mitochondrial DNA or Nuclear DNA Units of the FBI Laboratory.


                                             iii
     AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION
       LABORATORY’S FORENSIC DNA CASE BACKLOG

                                   Table of Contents
                                                                                              Page

Introduction ...................................................................................... 1
  OIG Audit Approach ........................................................................... 1
  Background....................................................................................... 3

Nuclear DNA Unit Backlog Reduction ................................................. 6
 Backlog Mitigation Efforts.................................................................... 9
   Processing Enhancements .............................................................. 10
   Submission of Cases to the Nuclear DNA Unit ................................... 13

Mitochondrial DNA Unit Backlog Reduction Statistics ...................... 17
 Backlog Mitigation Efforts.................................................................. 21
   TEDAC Agreement......................................................................... 22
   Qualified Examiners ...................................................................... 23
   Future Enhancements .................................................................... 23

The FBI’s Cooperative Agreements for DNA Analysis....................... 25
 Regional Mitochondrial DNA Program .................................................. 25

Laboratory Information Management System Efforts ...................... 27
  eLAB Implementation Process ........................................................... 31

External Factors Potentially Affecting the DNA Units ....................... 32

Conclusion and Recommendation .................................................... 34

STATEMENT ON INTERNAL CONTROLS ............................................. 35

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........ 36

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ................. 37

APPENDIX II - THE FEDERAL BUREAU OF INVESTIGATION’S
 RESPONSE TO THE OFFICE OF THE INSPECTOR GENERAL’S AUDIT
 REPORT RECOMMENDATION ......................................................... 39

APPENDIX III – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
 SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ......... 41
    AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION
      LABORATORY’S FORENSIC DNA CASE BACKLOG

Introduction

       The Federal Bureau of Investigation (FBI) Laboratory plays an
important role in the analysis of forensic DNA cases. Contributors from FBI
field offices, other federal agencies, and state and local agencies that do not
have a forensic laboratory in their jurisdiction send cases for forensic
examination to the FBI Laboratory. The FBI Laboratory provides forensic
examinations and reports, technical support, expert witness testimony, and
training to federal, state, and local law enforcement agencies.

       Forensic DNA casework testing involves the evaluation of biological
evidence using DNA technologies. Forensic DNA analysis is a vital tool in law
enforcement and counterterrorism investigations. DNA collection and
analysis gives the criminal justice field a powerful tool for convicting the
guilty and exonerating the innocent. DNA analysis can be used to implicate
or eliminate a suspect, solve cases that had previously been thought of as
unsolvable, link evidence from different crime scenes, or aid in the
identification of victims.

       Forensic DNA can be obtained from crime scenes or evidentiary items
such as envelopes, clothing, and drinking glasses and compared to samples
collected from known persons in an attempt to link a perpetrator to a crime.
A single forensic case can contain multiple pieces of evidence, each of which
may yield several samples for forensic testing, including DNA analysis.

OIG Audit Approach

      This report is a follow-up to the U.S. Department of Justice Office of
the Inspector General’s (OIG) review of the FBI Laboratory’s progress in
reducing its overall forensic DNA case backlog. 1 Our August 2010 report
focused on the FBI’s efforts to reduce the forensic DNA case backlog and
minimize workflow bottlenecks. The FBI Laboratory pursued various
strategies, such as implementing a laboratory information management
system, adding human resources, and engaging in cooperative agreements.
We found that these strategies were ongoing, and had not yet reduced the
forensic DNA case backlog at the FBI Laboratory.


       1
         U.S. Department of Justice Office of the Inspector General, Review of the Federal
Bureau of Investigation Laboratory’s Forensic DNA Case Backlog, Report 10-39 (August
2010).
       Our previous report contained five recommendations to the FBI to help
improve laboratory operations, such as standardizing an FBI Laboratory-wide
definition for calculating backlog within caseworking units, ensuring FBI
Laboratory users had access to a laboratory information management
system, and examining the effect of cooperative agreements on the overall
backlog and the amount of time contributors wait for test results. The FBI
concurred, and as discussed further in this report, generally implemented
these recommendations.

       The OIG conducted this audit to assess the FBI Laboratory’s continued
efforts to reduce the backlog of forensic DNA cases. Specifically, the
objectives of this audit were to: (1) verify the total number of forensic DNA
cases that remain unprocessed by the FBI Laboratory, (2) evaluate the
status of the implementation of a laboratory information management
system, (3) examine the effect of outsourcing agreements on the overall
DNA forensic casework backlog, and (4) assess any impending external
factors that may impact the ability of the forensic DNA units to maintain
their workload.

      In this report, we define “backlog” as the number of forensic DNA
cases that are active at any given time in the Nuclear and Mitochondrial DNA
Units, the two caseworking units that provide forensic DNA examinations at
the FBI Laboratory, because the forensic DNA units at the FBI Laboratory do
not have a uniform definition for calculating backlog. 2 We reviewed case
acceptance statistics in the Nuclear and Mitochondrial DNA Units for fiscal
years (FYs) 2008 through 2011, and backlog statistics from FY 2009 through
the second quarter of FY 2012. To assess the FBI Laboratory’s effort to
reduce the backlog, we interviewed officials associated with the FBI
Laboratory’s forensic DNA programs. In addition, we reviewed laboratory
information management system implementation efforts, backlog reduction
plans, staffing levels, new automation efforts, and cooperative agreements.
Appendix I contains a more detailed description of our audit objectives,
scope, and methodology.




       2
         The number of active cases includes all cases in the unit that do not have a status
of completed. This definition is consistent with the definition used in our prior report.


                                             2
Background

      The FBI Laboratory is comprised of nine caseworking units, with the
Nuclear DNA Unit and the Mitochondrial DNA Unit responsible for performing
DNA analysis. 3 Nuclear DNA analysis generates a DNA profile sufficiently
rare enough to be associated to a single individual within a reasonable
degree of scientific certainty. In contrast, because mitochondrial DNA is
maternally inherited, multiple individuals can have the same mitochondrial
DNA profile, and unique identifications are not possible. However,
mitochondrial DNA analysis can often generate a DNA profile from evidence
that may not be suitable for nuclear DNA examinations, such as highly
degraded bone fragments, teeth, and hair. Therefore, mitochondrial DNA
can be useful for obtaining information in cases in which nuclear DNA
analysis is not feasible.

      In addition to collecting forensic DNA evidence from crime scenes,
evidentiary items, or victims, DNA samples can be collected from persons
who have been charged or convicted of certain crimes – this type of DNA
sample is not considered evidence. Convicted offender DNA samples are
uploaded into the Combined DNA Index System (CODIS) to be compared
with DNA profiles generated from evidence collected from crime scenes in an
attempt to identify perpetrators. 4

      Historically, the FBI Laboratory has had a backlog of both forensic DNA
cases and convicted offender samples. The OIG conducted an audit of the
FBI’s convicted offender, arrestee, and detainee backlog and found that, as
of September 2010, the FBI Laboratory had effectively eliminated its backlog
of convicted offender, arrestee, and detainee DNA samples. 5 The OIG
determined that the FBI reduced its backlog from over 312,000 samples in

       3
        The FBI Laboratory’s nine caseworking units are the Nuclear DNA, Mitochondrial
DNA, Trace Evidence, Firearms and Toolmarks, Latent Print Operations, Questioned
Documents, Chemistry, Cryptanalysis and Racketeering Records, and Explosives Units.
       4
          CODIS is a database of local, state, and national DNA profiles from convicted
offenders, unsolved crime scene evidence, and missing persons. Every state has a statutory
provision establishing a DNA database that allows for the collection of DNA profiles from
offenders convicted of particular crimes. CODIS software enables local, state, and national
law enforcement crime laboratories to compare DNA profiles electronically, thereby linking
crimes to each other and identifying suspects by matching DNA profiles from crime scenes
with profiles from convicted offenders. As of April 2012, there are over 11 million offender
and forensic profiles in the National DNA Index System, which is the national database in
CODIS.
       5
         U.S. Department of Justice Office of the Inspector General, Audit of the Federal
Bureau of Investigation’s Convicted Offender, Arrestee, and Detainee DNA Backlog, Audit
Report 11-39 (September 2011).


                                             3
December 2009 to a workload of approximately 14,000 samples in May
2011. The FBI Laboratory’s backlog in analyzing and uploading convicted
offender samples was mainly caused by recent federal legislation that
expanded the scope of DNA sample collection from violent convicted federal
offenders to include anyone who commits a federal offense, as well as non-
U.S. citizens who are detained in the United States. 6 The FBI achieved these
results by implementing a backlog reduction strategy, hiring additional
human resources, using high throughput robotics, implementing Expert
System software for a semi-automated review of DNA profiles after
completion of analysis, and reconfiguring laboratory space for more efficient
processing.

       We previously reported that the forensic DNA units at the FBI
Laboratory did not have a uniform definition for calculating backlog, and
recommended that the FBI standardize Laboratory-wide definitions for
calculating backlog within all caseworking units. As of August 2012, the FBI
Laboratory had not yet developed a uniform definition. FBI Laboratory
officials explained that they have not applied a universal definition of backlog
because the FBI Laboratory does not want to publish an official FBI position
on the definition of backlog before there is consensus within the forensic
community.

      The Nuclear and Mitochondrial DNA Units are required to report their
workload to FBI management using monthly scorecards, which serve as a
status report. The scorecards contain unit-specific information such as the
number of cases the unit received, completed, and total backlog. To verify
that the statistics reported in the status updates were accurate, we selected
four historical points in time to compare a full active case listing to the
number of active cases reported in the monthly scorecard. Based on our
testing, we found that both the Nuclear and Mitochondrial DNA Units were
accurately reporting the backlog within their respective units.

       The Nuclear DNA Unit primarily examines biological fluid stains, such
as blood and semen, whereas the Mitochondrial DNA Unit tests evidence that
is not suitable for nuclear DNA testing, such as naturally shed hairs, hair
fragments, bones, and teeth. Exhibit 2 outlines the Nuclear and
Mitochondrial DNA Unit’s classification of cases by program type.

      6
         Legislation that defines the scope of DNA collection includes the 2001 USA
PATRIOT Act, which added qualifying offenses to the collection of DNA samples from
convicted offenders; the Justice for All Act of 2004, which expanded the offenses for
convicted offenders to include any federal offense; and the DNA Fingerprint Act of 2005,
which directed that the Attorney General may collect DNA samples from individuals who are
arrested and from non-United States persons who are detained under the authority of the
United States.


                                            4
                 EXHIBIT 2: PROGRAM TYPE DEFINITIONS

      Program                                     Definition
                          Traditional FBI law enforcement jurisdiction, such as
Criminal                  violent crime, public corruption, organized crime, and
                          civil rights violations
                          Cases in which DNA profiles of missing and
Missing Persons           unidentified persons’ remains are compared to
                          biological relatives for identification
                          Cases consisting of evidence from federally recognized
                          tribes, including death investigations, child sexual and
Indian Country
                          physical abuse, violent felony assault, drug and gang
                          activity, and financial crimes
                          Cases that were part of a FYs 2008 through 2011
District of Columbia      agreement between the FBI and MPD that were
Metropolitan Police       outsourced to a private laboratory; only cases
Department (MPD)          submitted prior to September 30, 2011, were eligible
                          for processing
Terrorist Explosive
                          Improvised Explosive Devices sent from warzones
Device Analytical
                          worldwide as a means to gather intelligence 7
Center (TEDAC)
                          Counterterrorism cases, including domestic terrorism,
Intelligence (INTEL)
                          INTEL cases exclude TEDAC submissions
 Source: The FBI Laboratory

       The process of requesting forensic analysis services from the FBI
Laboratory begins with contributors submitting a case to the laboratory.
Cases are usually comprised of numerous pieces of evidence. At the FBI
Laboratory, the Evidence Control Unit accepts these cases and creates an
examination plan that details which items should be forwarded to which
examination unit. 8 Evidence can require testing in multiple caseworking
units, but some pieces of evidence from a case may not require any DNA
testing. Evidence Control Unit personnel physically transport evidence to
and from the caseworking units for testing and maintain paper-based chain-


       7
          TEDAC was conceived in response to the need to combat improvised explosive
devices (IED) in Iraq and Afghanistan. According to the FBI, the mission of TEDAC is to
coordinate and manage the unified effort of law enforcement, intelligence, and military
assets for the forensic and technical exploitation of IEDs of interest to the government
worldwide, in an effort to provide actionable intelligence to the offensive missions against
terrorism and to the Force Protection mission. Among the possible reasons TEDAC requests
DNA analysis is to help determine the source of an IED.
       8
        TEDAC submissions are not handled through the Evidence Control Unit; instead,
 submissions are delivered directly to caseworking units by TEDAC personnel.


                                             5
of-custody documentation to record inter-unit exchanges of evidence. Once
received by a unit, the forensic examiner within the caseworking unit
determines what type of forensic testing is required for each piece of
evidence within a case. Evidence sent to a DNA unit is tested by a unit
biologist, and a unit examiner analyzes test results and issues a report to
the case contributor.

Nuclear DNA Unit Backlog Reduction

      To verify the number of forensic DNA cases in the Nuclear DNA Unit’s
backlog, we compared case listings to backlog statistics reported by the
Nuclear DNA Unit. We calculated the backlog by adding all of the cases that
were received in a particular quarter and subtracting all of the cases that
were completed in the same quarter. We applied this method from FY 2009
– second quarter FY 2012. Our calculation of the Nuclear DNA Unit’s backlog
is similar to what the unit reported in its monthly scorecards. We noted a
small difference of cases considered to be a part of the Nuclear DNA Unit’s
backlog due to a “wobble” in the case management data – which is a result
of DNA cases being reopened or cases being in-between processes.

       Based on our testing, we found that the Nuclear DNA Unit is accurately
reporting the backlog. Our audit determined that, as of March 2012, the
backlog of cases in the Nuclear DNA Unit had been reduced significantly, and
the unit has shifted its backlog of cases to a monthly work-in-process. The
unit’s backlog decreased from 2,722 cases in March 2010 to 110 cases as of
March 2012. This constitutes a 96 percent reduction in the Nuclear DNA
Unit’s backlog. Exhibit 3 illustrates the Nuclear DNA Unit’s reported backlog
for FYs 2009 – second quarter FY 2012.




                                      6
  EXHIBIT 3: FBI REPORTED BACKLOG OF CASES IN THE NUCLEAR
        DNA UNIT FOR FYs 2009 – SECOND QUARTER 2012




 Source: The FBI Laboratory, Nuclear DNA Unit’s case management system

      We also sought to determine whether the FBI Laboratory was able to
decrease the total length of time contributors wait for results. Prior to the
elimination of the Nuclear DNA Unit’s backlog, the unit had 10 to 15 cases
with approaching trial dates at all times, and it was difficult for the unit to
work on cases that were not driven by trial dates. In combination with the
large backlog, this prioritization method resulted in longer in-unit turnaround
times for cases that were not of the highest priority.

      Our analysis of the overall turnaround time includes: (1) the average
time from when a case is received by the FBI Laboratory and arrives at the
Nuclear DNA Unit, and (2) the average time taken within the Nuclear DNA
Unit to perform analysis and report results. To perform this analysis, we
compared case acceptance and completion data for FYs 2010 and 2011 to
data from our previous report. Exhibit 4 details for FYs 2008 through 2011
the average turnaround time from when a case was accepted at the FBI
Laboratory until the Nuclear DNA Unit completed the cases and results were
communicated to the contributor. The time spent in the Nuclear DNA Unit is
decreasing; however, the length of time it takes evidence to enter the
Nuclear DNA Unit appears to be increasing.




                                         7
      The length of time evidence spends in other caseworking units
depends on the type of evidence, number of pieces of evidence, nature of
the crime committed, and the workload and resources of the other
caseworking units. We did not analyze the time period before cases enter
the Nuclear DNA Unit; and given the multiple variables, we are unable to
determine a cause for the increased turnaround time. However, we believe
the implementation of a laboratory information management system will
provide the FBI Laboratory with the information necessary to identify the
source of any systemic backlogs or bottlenecks.

      EXHIBIT 4: AVERAGE TURNAROUND TIME FOR COMPLETED
          NUCLEAR DNA UNIT CASES FOR FYs 2008 – 2011 9




                                                                 unit

                                                          unit




       Source: The FBI Laboratory, Nuclear DNA (nDNA) Unit’s case management system

       According to the FBI Laboratory, very old cases within the Nuclear
DNA Unit skew the calculation of average turnaround time for the time
periods reported here. However, the FBI Laboratory believes the turnaround
time statistic will be a more effective performance measure for future time
periods now that the backlog has been eliminated in the Nuclear DNA Unit.
With the Nuclear DNA Unit’s effective elimination of the backlog in December
2011, the unit is now focusing on prioritizing cases to ensure contributors
receive results within the unit’s target of 30 days. The unit revised its
definition of backlog to be any case in the unit more than 30 days old. Of

       9
          We calculated the average turnaround time for completed cases in the DNA units
using the cases received in each FY. However, cases may enter the FBI Laboratory in a
different year than the case enters a DNA unit, and they may be completed in a year later
than when they were received in a DNA unit.


                                            8
the 110 active cases in the Nuclear DNA Unit as of March 2012, only 41
cases had been in the unit longer than 30 days, therefore, using this
definition, the Nuclear DNA Unit has a backlog of 41 cases.

Backlog Mitigation Efforts

      In August 2009, the Nuclear DNA Unit developed a Backlog Mitigation
Plan to address the unit’s backlog. 10 The 23 goals detailed in this plan
generally relate to processing enhancements to increase the number of
cases completed and the submission of cases into the Nuclear DNA Unit.

      In order to determine the primary causes of the backlog elimination,
we analyzed the number of cases received and completed by the Nuclear
DNA Unit. We found that while the Nuclear DNA Unit received fewer cases
from FYs 2009 through 2011, the unit more than tripled its output of
completed cases during the same timeframe. The number of cases the
Nuclear DNA Unit received and completed for FYs 2008 through the second
quarter of 2012 is shown in Exhibit 5.




      10
          According to the FBI, as of March 2012, 21 of the 23 goals were either
successfully completed or in progress. The pending two goals focus on exploring new
methods for DNA processing.


                                            9
  EXHIBIT 5: CASES RECEIVED AND COMPLETED IN THE NUCLEAR
       DNA UNIT FROM FYs 2009 – SECOND QUARTER 2012




      Source: The FBI Laboratory, Nuclear DNA Unit’s case management system

       Based on our analysis of the number of cases the Nuclear DNA Unit
received and completed for FYs 2008 through the second quarter of 2012,
we determined that the decrease in the number of cases the unit received
contributed to the backlog elimination. However, we found that the more
significant factor contributing to the reduction of the Nuclear DNA Unit’s
backlog was the increase in the number of cases the unit completed. In
order to make these determinations, we reviewed the effect of the
processing enhancements that increased the number of cases completed as
well as changes to the unit’s case submission policies.

      Processing Enhancements

       According to the FBI Laboratory Assistant Director and the Nuclear
DNA Unit Chief, the most significant factors in reducing the backlog were the
unit’s automation efforts and increases in personnel. Both automation
efforts and hiring and training personnel were goals included in the unit’s
Backlog Mitigation Plan and these efforts significantly affected the number of
Nuclear DNA Unit cases completed since our 2010 report.



                                        10
       Automation Efforts. To help improve DNA processing times and to
streamline workflows, the Nuclear DNA Unit implemented automation
efforts. According to the FBI Laboratory, in May 2010, the Nuclear DNA Unit
began to automate parts of its DNA processing. Specifically, the unit has
automated the DNA quantification and typing process. 11 Additionally, in
February 2011 the Nuclear DNA Unit automated the processing of reference
samples. 12 These automation efforts mean that the Nuclear DNA Unit can
now batch, or group, samples for some of its DNA analysis processes.
However, because of the nature of casework DNA analysis, the Nuclear DNA
Unit must still perform some manual testing. For example, the serology
portion of nuclear DNA analysis is not automated. 13

       According to the FBI, automation efforts have led to a higher output of
DNA cases for the Nuclear DNA Unit. We analyzed the number of cases the
Nuclear DNA Unit completed from FYs 2009 through 2011 and found that
automation efforts have led to a higher output of cases for the Nuclear DNA
Unit. For example, in FY 2009, the unit completed 823 cases whereas in FY
2011, the unit completed 2,725 cases. This represents a 231 percent
increase in cases completed. In Exhibit 6 below, we isolated FY 2010
Nuclear DNA Unit case completion statistics to illustrate the unit’s case
completion data before and after automation was implemented in May 2010.
In the quarter after implementation of automation (Quarter 4), we noted an
almost 200 percent increase in cases completed as compared to the quarter
prior to automation implementation (Quarter 2).

    EXHIBIT 6: NUCLEAR DNA UNIT COMPLETED CASES – FY 2010

                                                          Number of Cases
                          Fiscal Year 2010
                                                            Completed
            Quarter   1   (October– December 2009)             208
            Quarter   2   (January – March 2010)               263
            Quarter   3   (April – June 2010)                  370
            Quarter   4   (July – September 2010)              778
        Source: The FBI Laboratory, Nuclear DNA Unit’s case management system


       11
          DNA quantification is the measurement of the concentration of DNA in a sample.
DNA typing is the process by which a DNA sample is examined and a DNA profile is
produced.
       12
           A reference sample is biological material obtained from a known individual and
collected for purposes of comparison to forensic samples.
       13
           The Nuclear DNA Unit performs a serology analysis to detect blood and semen in
biological stains or evidentiary items. This analysis typically is conducted prior to
conducting any nuclear DNA testing on a sample.


                                             11
       Human Resources. In our previous report, we noted that the FBI
stated that hiring and qualifying additional staff would help to reduce the
backlog. Examiners in the Nuclear DNA Unit are responsible for conducting
reviews of DNA analysis and performing supervisory functions. 14 Our prior
report detailed 21 examiner positions in the unit, 9 of which were on-board,
qualified examiners; 8 were examiners-in-training; and 4 were examiner
candidates undergoing background investigations. 15 New hires are required
to undergo a background investigation in addition to completing a 12-18
month training program before they can conduct casework. Considering the
on-board and training process, it can take approximately 2 years before a
new hire can significantly affect the output of a DNA unit. Since the
issuance of our prior report, the Nuclear DNA Unit qualified eight additional
examiners and has four in training. Exhibit 7 displays a comparison of
examiners in the Nuclear DNA Unit in August 2010 versus March 2012.

  EXHIBIT 7: COMPARISON OF STAFFING LEVELS IN THE NUCLEAR
                         DNA UNIT

               Status                       August 2010             March 2012
     Examiners On-board                          9                      17
     Examiners-in-Training                       8                       4
     Examiner Candidates                         4                       -
     Vacancies                                   -                       -
     Total Examiner Positions                   21                      21
     Source: The FBI Laboratory, Nuclear DNA Unit

     According to the FBI, having additional, on-board personnel to analyze
the DNA profiles allowed the unit to focus on casework duties and complete
more cases per year. Our analysis revealed that the combination of
automation efforts and increased personnel have led to a higher output of
DNA cases for the Nuclear DNA Unit. These efforts have significantly

       14
          In our prior report, we stated that less than 50 percent of a Nuclear DNA Unit
examiner’s time was spent analyzing DNA evidence. We found that the balance of their
time was spent performing supervisory and managerial tasks; making phone calls to
contributors to obtain case specific information and to provide status updates; testifying in
court; and providing DNA training to other federal components. Prior to July 2009,
examiners in the Nuclear and Mitochondrial DNA Units did not record their time, and after
July 2009, examiners used an informal method to record their time. We recommended that
the FBI Laboratory establish formal time tracking procedures, which the FBI Laboratory
implemented in both DNA units – in January 2011 for the Nuclear DNA Unit and in March
2011 for the Mitochondrial DNA Unit.
       15
            Qualified examiners are FBI Laboratory personnel who successfully complete a
unit’s training program, pass a competency test, and participate in the FBI Laboratory
Proficiency Testing Program.


                                             12
increased the unit’s output of completed cases from FYs 2009 to 2011. This
increase in the number of cases the Nuclear DNA Unit has been able to
complete has been a vital factor in the reduction of the backlog.

      Submission of Cases to the Nuclear DNA Unit

       The Nuclear DNA Unit has received fewer cases per quarter since our
prior report. The number of cases the unit received decreased from an
average of 363 in October 2008 - March 2010, to 263 from April 2010 –
March 2012. Based on our analysis, several factors contributed to the
decrease in the number of cases the Nuclear DNA Unit received over this
time period. The Backlog Mitigation Plan outlined three initiatives (1) the
Nuclear DNA Unit limited Terrorist Explosive Device Analytical Center
(TEDAC) submissions, (2) the unit entered into a cooperative agreement to
analyze some missing persons cases because technical difficulties prevented
it from processing bone evidence, and (3) the unit had an agreement with
the District of Columbia Metropolitan Police Department (MPD) to process
DNA cases. Additionally, FBI Headquarters redirected Indian Country
evidence from Indian reservations in two states to state laboratories.

      TEDAC Submissions. TEDAC was conceived in response to combat the
threat of improvised explosive devices (IEDs) in Iraq and Afghanistan.
According to the FBI, the mission of TEDAC is to coordinate and manage the
unified effort of law enforcement, intelligence, and military assets for the
forensic and technical exploitation of IEDs of interest to the government
worldwide, in an effort to provide actionable intelligence to the offensive
missions against terrorism. Among the reasons TEDAC requests DNA
analysis is to help determine the source of an IED.

      Since 2003, the FBI Laboratory has supported the efforts of TEDAC.
However, because TEDAC submissions were drawing examiners away from
the FBI Laboratory’s traditional law enforcement casework duties, one of the
Nuclear DNA Unit’s goals with the Backlog Mitigation Plan was to limit the
number of TEDAC submissions that the unit accepted until the unit
eliminated its backlog. In November 2009, the Nuclear DNA Unit worked
with TEDAC to return 60 unprocessed cases, and to limit the number of
cases accepted per year. 16 This decision helped the Nuclear DNA Unit reduce
the number of total cases accepted each year and allowed examiners to
work on the unit’s existing backlog. The Nuclear DNA Unit estimated that



      16
          TEDAC also uses a contract laboratory to perform DNA testing. According to the
TEDAC Director, any submission for which TEDAC requires testing will either be processed
by the FBI Laboratory or the contract laboratory.


                                           13
limiting the number of TEDAC cases would decrease the number of
submissions to the unit by approximately 10 per month.

      With its backlog of cases now significantly reduced, the Nuclear DNA
Unit plans to analyze TEDAC submissions, on a limited basis, so that the unit
does not find itself in a backlogged situation again. According to an FBI
electronic communication, as of November 2011, the Nuclear DNA Unit will
accept no more than 50 TEDAC submissions per month, and no more than
600 submissions per year, unless the unit agrees in writing to accept more.

       Indian Country. In June 2009, the Attorney General launched a
Department-wide initiative to enhance public safety in Indian Country. FBI
and tribal officials brought up concerns about the long turnaround times for
Indian Country forensic cases when submitted to the FBI Laboratory. As a
result, the FBI Headquarters established agreements with the Arizona
Department of Public Safety in May 2010 and the South Dakota Division of
Criminal Investigation Forensic Laboratories in August 2010, to process
forensic evidence from criminal cases originating on Indian reservations in
Arizona and South Dakota. 17 The agreements indicate that the laboratories
will work cases that involve certain federal crimes, including, but not limited
to, violent crimes committed on Indian reservations and crimes involving
Native Americans in which the FBI has investigative jurisdiction. The
laboratories submit monthly statistical reports to the FBI, which are tracked
at the FBI Indian Country Crimes Unit. 18 The FBI Laboratory continues to
receive all other Indian Country cases not covered under the Arizona or
South Dakota agreements.

      The FBI funds the Arizona Department of Public Safety Crime
Laboratory and the South Dakota Division of Criminal Investigation to
examine crime scene evidence submitted by Tribal Law Enforcement
authorities and the FBI. 19 According to the FBI, this partnership between
federal, state, and tribal law enforcement will enhance the criminal
investigations within Indian Country by improving the timeliness for
evidence examinations and results. In turn, this will allow the U.S.

       17
          The Arizona and South Dakota agreements support the investigation of crimes
occurring within the States of Arizona (including the portion of the Navajo reservation in
New Mexico) and South Dakota.
       18
          The monthly statistical reports do not identify the number of DNA cases; instead,
they report the number of pieces of evidence received and examined. Since cases can
contain multiple pieces of evidence, we cannot determine how many cases that the Arizona
and South Dakota laboratories analyzed.
       19
         According to the FBI Indian Country Crimes Unit, funding for the Arizona and
South Dakota agreements comes from Safe Streets programs.


                                             14
Attorney's Office to pursue timely prosecution of violent criminal matters.
Additionally, American Indian Communities in Arizona and South Dakota will
be served more efficiently and effectively when it comes to public safety
matters.

      FBI personnel in the Indian Country Crimes Unit are pleased with the
results of the agreements. FBI field offices in the Arizona and South Dakota
areas cited faster turnaround times, closer proximity of laboratories for
larger pieces of evidence, and a facilitation of a working relationship between
the FBI and local law enforcement personnel. With the agreements in place,
the FBI Laboratory does not anticipate receiving the Arizona or South Dakota
Indian Country cases in the future.

       Cooperative Agreement for Missing Persons Cases. During FY 2009,
the Nuclear DNA Program suffered technical difficulties that prevented it
from processing bone evidence. Bone is often the only evidentiary item
available in a missing persons investigation; therefore, this technical
deficiency greatly diminished the ability of the Nuclear DNA Unit to analyze
missing persons cases. To address this deficiency, the Nuclear DNA Unit
funded a cooperative agreement with the Minnesota Department of Public
Safety Laboratory to provide nuclear DNA testing services of missing persons
cases for FY 2011 at a cost of $1 million. 20

      The Nuclear DNA Unit sent cases to the Minnesota laboratory on a
monthly basis and the Minnesota laboratory completed testing and entered
any eligible profiles into CODIS. Once the Nuclear DNA Unit sent a case to
the Minnesota laboratory, it was considered closed and no longer a part of
the unit’s backlog. By outsourcing missing persons cases and removing
these cases from the Nuclear DNA Unit’s backlog at transfer, the unit was
able to report a reduction in its case backlog prior to the completion of DNA
testing on this evidence. Ideally, the Nuclear DNA Unit should have included
the outsourced cases in its backlog until the Minnesota laboratory completed
testing.

     The cooperative agreement estimated that the Minnesota laboratory
would complete 720 cases over the course of the year. By May 2011, the
Nuclear DNA Unit stopped sending cases to the Minnesota laboratory
because the Minnesota laboratory had received as many cases as it could

      20
           The agreement with the Minnesota laboratory specified that the FBI Laboratory
would provide up to $1 million dollars to reimburse the laboratory for expenses such as
salaries and equipment. The 720 estimated number of missing persons cases anticipated to
be completed by the Minnesota laboratory was a good faith estimate and not an enforceable
metric in the agreement. The Minnesota laboratory was not reimbursed based on the
number of completed cases.


                                           15
handle that year. Ultimately, the Minnesota laboratory was only able to
complete approximately 240 cases during FY 2011.

      An FBI Laboratory official explained that the agreement lacked an
enforcement mechanism to ensure that expected case completion metrics
are met. However, this same official explained that because the Nuclear
DNA Unit was unable to process any missing persons cases at the time, the
Nuclear DNA Unit’s cooperative agreement did provide a necessary service.
Subsequently, the Nuclear DNA Unit has addressed its technical deficiencies
in processing bone evidence and now completes all nuclear DNA missing
persons casework within the unit. Given its success in eliminating its
backlog, the Nuclear DNA Unit does not foresee developing cooperative
agreements in the future.

        District of Columbia Metropolitan Police Department (MPD). In 2004,
the FBI Laboratory signed an agreement with the MPD to provide laboratory
facilities and services and to help the MPD establish its own forensic DNA
analysis capabilities. However, in September 2008, because of space
constraints at the FBI Laboratory, the FBI and the MPD signed a new
agreement stating that the FBI would: (1) provide the MPD with laboratory
space at another facility to conduct its own casework and (2) outsource MPD
nuclear DNA cases to a private laboratory. According to the FBI Laboratory,
this agreement was established in an effort to reduce the Nuclear DNA Unit’s
existing backlog of MPD cases, as well as support the creation of an MPD
DNA casework laboratory.

      Under the 2008 agreement, the MPD would send a request to the FBI
Laboratory Nuclear DNA Unit to create a new case and send the evidence
associated with the case to the private laboratory. After analysis was
completed at the private laboratory, a copy of the case file would be sent to
the FBI Laboratory for final review. The Nuclear DNA Unit included all
outsourced MPD cases in its backlog calculation.

      According to FBI Laboratory personnel, there were instances in which
the MPD was requesting a case be opened, but was not sending the evidence
to the private laboratory. After comparing active MPD cases in the Nuclear
DNA Unit’s backlog to cases that the private laboratory had received, the
Nuclear DNA Unit found that there were about 160 MPD cases in the unit’s
backlog for which MPD had not sent evidence to the private laboratory.
These 160 cases comprised over one third of the MPD cases in the Nuclear
DNA Unit’s March 2010 backlog.

      We recommended that the FBI Laboratory coordinate with the MPD to
resolve the instances of missing case evidence. As a result, the Nuclear DNA


                                     16
Unit worked with the MPD to review these 160 cases and the MPD confirmed
that it was not able to forward evidence for testing. These cases were then
closed by the Nuclear DNA Unit and removed from the unit’s backlog. The
closure of these cases does not preclude MPD from resubmitting cases if
evidence from these 160 cases is located in the future.

     The agreement between the FBI and the MPD to outsource backlogged
MPD cases to a private laboratory, which began in 2008, expired in
September 2011. As of March 31, 2012, all cases that were part of the 2008
agreement have been completed.

Mitochondrial DNA Unit Backlog Reduction Statistics

       We compared case listings to backlog statistics reported by the
Mitochondrial DNA Unit to verify the number of forensic DNA cases in the
Mitochondrial DNA Unit’s backlog. We found that the Mitochondrial DNA Unit
is accurately reporting the backlog. While our prior review revealed that the
backlog in the Mitochondrial DNA Unit was not as large as the Nuclear DNA
Unit’s backlog, we note that the number of cases has decreased from 489
cases in March 2010 to 293 cases as of March 2012, representing a 40
percent reduction in the backlog. Exhibit 8 illustrates the unit’s reported
backlog of cases for FYs 2009 – second quarter FY 2012.




                                     17
     EXHIBIT 8: FBI REPORTED BACKLOG OF CASES IN THE
MITOCHONDRIAL DNA UNIT FOR FYs 2009 – SECOND QUARTER 2012




Source: The FBI Laboratory, Mitochondrial DNA Unit’s case management system

      In reviewing Exhibit 8, we note a significant drop of over 300 cases in
the Mitochondrial DNA Unit’s backlog between the first and second quarters
of FY 2011. In February 2011 (second quarter), the Mitochondrial DNA Unit
altered its method for calculating its backlog. Prior to February 2011, the
Mitochondrial DNA Unit classified backlogged cases as any case that was not
completed. In February 2011, the unit determined that discontinued cases
and TEDAC submissions sent to a regional laboratory for analysis would no
longer be included in the unit’s backlog calculation. 21

      According to the FBI, historical TEDAC submissions for mitochondrial
DNA exams included all hairs identified on improvised explosive devices and
the Mitochondrial DNA Unit would provide analysis on every sample


       21
           According to the Mitochondrial DNA Unit, when a case has a status of
discontinued, there is no further analysis that can be performed on the case. The case is
then considered completed and returned to the contributor with a report to document that
the case has been discontinued. Discontinued cases generally occur in instances in which
the Mitochondrial DNA Unit is unable to generate a mitochondrial DNA profile from the
evidence provided in the case. Most of the discontinued cases are TEDAC submissions,
since they are often times collected from the remnants of detonated IEDs, therefore the
quality of genetic material yielded is highly degraded.


                                            18
submitted. However, the FBI told us that there have been no documented
instances for which probative results were generated from these
mitochondrial DNA examinations. As a result, the Mitochondrial DNA Unit
worked together with TEDAC to revise the unit’s case acceptance policy so
that new submissions to the unit are more likely to yield probative
information. 22 As a part of this revision, the Mitochondrial DNA Unit
discontinued approximately 300 TEDAC submissions from its backlog. While
it appears to be appropriate to not routinely conduct mitochondrial DNA
examinations in cases that are highly unlikely to generate probative results,
we note that the decision not to conduct examinations in these type of cases
accounts for the majority of the decrease in the Mitochondrial DNA Unit’s
backlog beginning in the first quarter of 2011.23

      In a related matter, the FBI Laboratory is working with the FBI Office
of General Counsel, the Department of Justice, the Innocence Project, and
others to prepare a plan for the review of historical cases involving
microscopic hair examinations. This plan is not yet finalized, but should DNA
examinations be requested and certain conditions are met, the FBI
Laboratory has stated that it is available to provide mitochondrial DNA
testing on the relevant hair evidence. According to the FBI Laboratory, until
a plan is finalized and DNA examinations are requested, it would be
impossible to estimate the effect that this review might have on the
Mitochondrial DNA or Nuclear DNA Units of the FBI Laboratory.

      As a part of our analysis of the Mitochondrial DNA Unit’s backlog, we
also sought to determine whether the FBI Laboratory was able to decrease
the total length of time contributors wait for mitochondrial DNA test results.
Our analysis of the overall turnaround time includes: (1) the average time
from when a case is received by the FBI Laboratory and arrives at the
Mitochondrial DNA Unit and (2) the average time taken within the
Mitochondrial DNA Unit to perform analysis and report results. To perform
this analysis, we compared case acceptance and completion data for FYs
2010 and 2011 to data from our previous report. Exhibit 9 details for FYs
2008 through 2011 the average turnaround time from when a case was



      22
          The FBI Laboratory currently maintains all submissions to TEDAC, and if needed,
could analyze older submissions for mitochondrial or nuclear DNA analysis.
      23
           Prior to February 2011, we were unable to identify the number of discontinued
cases or TEDAC cases assigned to a regional laboratory that were included in the
Mitochondrial DNA Unit’s backlog because of the inability of the Mitochondrial DNA Unit’s
case management system to query historical data. According to the Mitochondrial DNA Unit
Chief, the unit’s case management system is continuously updated with case information;
as a result, the system does not archive historic workload status statistics.


                                           19
accepted at the FBI Laboratory until the Mitochondrial DNA Unit completed
the cases and results were communicated to the contributor.

      EXHIBIT 9: AVERAGE TURNAROUND TIME FOR COMPLETED
       MITOCHONDRIAL DNA UNIT CASES FOR FYs 2008 – 2011




                                                                  unit


                                                          mtDNA unit




Source: The FBI Laboratory Mitochondrial DNA (mtDNA) Unit’s case management system

      Our prior report noted a significant turnaround time at the FBI
Laboratory for DNA testing. Based on our review of the FYs 2008 through
2011 statistics, the turnaround time peaked in FY 2010 at 439 days and
decreased to 348 days in FY 2011. However, the FY 2011 average
turnaround time is still higher than the FY 2008 to 2009 average of 300
days. While the time a case was in the Mitochondrial DNA Unit appears to
be decreasing, the time it takes for a case to be received at the
Mitochondrial DNA Unit is generally increasing. 24 According to the FBI
Laboratory, with the existence of a backlog, the turnaround time statistic
lacks explanatory value since very old cases within the Mitochondrial Unit



       24
          Our audit did not specifically test the causes for the length of time evidence
spends in other units prior to being received at the Mitochondrial DNA Unit. The length of
time evidence spends in other caseworking units prior to receipt at the DNA units depends
on the type of evidence, number of pieces of evidence, and nature of the crime committed.
Given the multiple variables that dictate necessary forensic tests, we are unable to
conclusively determine a cause for delays in delivering evidence to the DNA units. However,
we believe the implementation of a laboratory information management system will provide
the FBI Laboratory with the data necessary to improve workflows and increase efficiency in
evidence tracking and forensic test planning.


                                            20
skew the calculation of average turnaround time for the time periods
reported.

Backlog Mitigation Efforts

       Recognizing the need to improve efficiency within the Mitochondrial
DNA Unit, the Unit Chief implemented a formal Backlog Mitigation Plan in
April 2012. The plan includes 23 goals for improving case acceptance
policies, staffing, and DNA processing. However, since the plan was recently
put in place, we are unable to evaluate the effectiveness of the plan.

      We reviewed the number of cases received and completed by the
Mitochondrial DNA Unit. We found that despite a reduction in the number of
cases the unit received, there has not been a significant reduction in the
backlog. As shown in Exhibit 10, the number of cases the unit completed
from FYs 2009 – second quarter 2012 has consistently decreased.
Specifically, we found that the unit’s case completion has declined from
640 cases completed in FY 2009 to 374 cases in FY 2011, a decrease of
42 percent.

       EXHIBIT 10: CASES RECEIVED AND COMPLETED IN THE
                MITOCHONDRIAL DNA UNIT FROM
                FYs 2009 – SECOND QUARTER 2012




    Source: The FBI Laboratory, Mitochondrial DNA Unit’s case management system




                                        21
       We reviewed both case submission changes and factors affecting the
ability of the unit to complete cases. The number of cases the Mitochondrial
DNA Unit received decreased in part because of a November 2011
agreement with TEDAC to limit the number of TEDAC submissions accepted
per year. Further, the Mitochondrial DNA Unit experienced a decrease in the
number of qualified examiners, which contributed to the decrease in the
number of cases the unit completed. However, the Mitochondrial DNA Unit
is in the process of implementing enhancements that may increase the
completion of cases.

      TEDAC Agreement

       Since 2003, the FBI Laboratory has supported the efforts of TEDAC.
However, the large number of TEDAC submissions was drawing examiners
away from the Mitochondrial DNA Unit’s traditional law enforcement
casework duties. We spoke with the Director of TEDAC who added that prior
to his appointment in 2011, TEDAC would send large volume submissions to
the Mitochondrial DNA Unit in hopes of generating an intelligence lead from
a mitochondrial DNA profile generated from these submissions. In Exhibit
11, we provide a breakdown of the number of TEDAC submissions the
Mitochondrial DNA Unit accepted in FYs 2008 through 2011.

        EXHIBIT 11: TEDAC SUBMISSIONS ACCEPTED BY THE
           MITOCHONDRIAL DNA UNIT BY FISCAL YEAR

                Fiscal Year                   Mitochondrial DNA Unit
                   2008                                309
                   2009                                344
                   2010                                441
                   2011                                136
    Source: The FBI Laboratory, Mitochondrial DNA Unit’s case management system

       The TEDAC Director told us that over time, TEDAC has learned that it
does not need to provide the same volume of submissions to the
Mitochondrial DNA Unit and TEDAC is better served to send only those
submissions that it believes can provide additional leads to an existing
intelligence collection effort. Both the Unit Chief of the Mitochondrial DNA
Unit and the Director of TEDAC agreed that both parties could make better
use of its collective resources by reevaluating case acceptance policies for
TEDAC submissions to the Mitochondrial DNA Unit.

      As a result of the Mitochondrial DNA Unit’s reevaluation of submission
acceptance policies for TEDAC submissions, in November 2011, the
Mitochondrial DNA Unit and TEDAC mutually agreed that TEDAC would


                                        22
submit no more than 100 submissions per year to the Mitochondrial DNA
Unit. The limited number of TEDAC submissions the Mitochondrial DNA Unit
receives will decrease the overall number of DNA samples the unit must
analyze.

      Qualified Examiners

      In our previous report, we noted that the FBI stated that hiring and
qualifying additional staff would help to reduce the backlog. The
Mitochondrial DNA Unit has suffered a loss of qualified examiners in the unit
since FY 2010. However, as of March 2012, the unit has two examiner
candidates identified and three examiners-in-training. Until the
Mitochondrial DNA Unit has more on-board examiners, the unit cannot
dedicate examiners solely to case working duties. According to FBI
personnel, training and qualifying the additional examiners will assist the
Mitochondrial DNA Unit in reducing its backlog. Exhibit 12 compares
examiner staffing levels from August 2010 and March 2012 in the
Mitochondrial DNA Unit.

       EXHIBIT 12: COMPARISON OF STAFFING LEVELS IN THE
                    MITOCHONDRIAL DNA UNIT

                Status                     August 2010     March 2012
      Examiners On-board                        6              3
      Examiners-in-Training                     2              3
      Examiner Candidates                       2              2
      Vacancies                                 -              1
      Total Examiner Positions                 10              9
      Source: The FBI Laboratory, Mitochondrial DNA Unit

      Future Enhancements

       The Mitochondrial DNA Unit is in the process of implementing limited
automation to help improve DNA processing times. Mitochondrial DNA
analysis has a higher risk of contaminating the sample than nuclear DNA
analysis, therefore the Mitochondrial DNA Unit has focused its automation
efforts on batching familial reference samples used to generate
mitochondrial DNA profiles, instead of batching the easily contaminated




                                         23
evidentiary samples. 25 The FBI believes implementing batched reference
samples will show a significant time savings for the unit’s operations.

       Additionally, because the Nuclear and Mitochondrial DNA Units extract
DNA from bone evidence, the Mitochondrial DNA Unit is also pursuing a plan
to collaborate with the Nuclear DNA Unit’s research team to reduce the
duplication of time spent by both units on bone analysis. Further, the
Mitochondrial DNA Unit plans to implement a new case management system
to track the in-unit workflow. According to Mitochondrial DNA Unit officials,
the new system is already used successfully in a non-caseworking unit, the
Federal DNA Database Unit, and is in the process of being implemented in
the Nuclear DNA Unit. Once implemented, the new case management
system will generate data that can interface with a laboratory-wide
information management system.




       25
          The maternal inheritance of mitochondrial DNA allows scientists to compare the
mitochondrial DNA profile of a set of remains to that of reference samples from individuals
such as the mother, brother, sister, or any other maternally related individuals of a missing
person. These samples should have the same mitochondrial DNA profiles because all
maternal relatives inherit the same mitochondrial DNA.


                                             24
The FBI’s Cooperative Agreements for DNA Analysis

      Since 2003, in an attempt to minimize the workload of the FBI
Laboratory’s Mitochondrial DNA Unit and to improve state-level DNA testing
capacity, the FBI has developed cooperative agreements with regional
laboratories to test non-federal mitochondrial DNA cases.

Regional Mitochondrial DNA Program

        In FY 2003, Congress included authority and funding for the FBI to
maintain or establish four regional mitochondrial DNA forensic laboratories in
affiliation with the FBI Laboratory. The program's mandate is to provide
analysis of human remains and other evidence to assist law enforcement in
the identification of missing persons and criminal perpetrators. Beginning in
FY 2003, the FBI Laboratory established cooperative agreements with four
regional forensic laboratories to provide mitochondrial DNA analysis to other
federal, state, and local law enforcement agencies. These cooperative
agreements cover the expenses, including salaries, of mitochondrial DNA
processing at the regional laboratories. Each agreement provides a regional
laboratory with nine positions, at least two of which must be examiner
positions. The Regional Mitochondrial DNA Program offers considerable
benefits to state and local law enforcement by providing free mitochondrial
DNA services which otherwise likely would be unavailable; the FBI
Laboratory is not responsible for conducting non-federal mitochondrial DNA
analysis.

      As part of the Regional Mitochondrial DNA Program, the FBI Laboratory
had cooperative agreements with the state forensic laboratories in Arizona,
Minnesota, Connecticut, and New Jersey. As part of the agreements, each
laboratory was projected to complete 120 mitochondrial DNA cases a year.
These cases are sent directly to the regional laboratories from law
enforcement contributors and are tracked by the FBI Laboratory. 26
Exhibit 13 details budgeted funding for the regional laboratories for FYs 2010
- 2012.




       26
          At the end of FY 2009, the FBI Laboratory and the Connecticut Department of
Public Safety ended their agreement because of quality concerns identified in its annual
audit and poor administration.


                                            25
    EXHIBIT 13: REGIONAL MITOCHONDRIAL DNA PROGRAM
LABORATORY BUDGETED FUNDING FOR FYs 2010 – 2012 27

 Fiscal Year         Arizona     Minnesota               New Jersey            Total
    2010            $1,005,000   $1,005,000              $1,005,000         $3,015,000
    2011            $1,005,000   $1,005,000              $1,005,000         $3,015,000
    2012            $1,125,000   $1,125,000                   -             $2,250,000
                    Total Budgeted Funding                                  $8,280,000
       Source: The FBI Laboratory’s Regional Mitochondrial DNA Program

      From July 1, 2010 through June 30, 2011, the Arizona laboratory
reported on 94 mitochondrial DNA cases while the Minnesota laboratory
reported on 138 cases. However, during the same time period, the
New Jersey laboratory did not conduct any mitochondrial DNA testing
because of unforeseen staffing deficiencies. 28 Despite its inability to provide
mitochondrial DNA testing services, New Jersey laboratory personnel
attended training and validated studies on new technology. Based on the
FBI’s experiences with the New Jersey laboratory, the FBI ended its
agreement with the New Jersey laboratory, and has strengthened the
regional agreements by specifying performance metrics. The metrics were
incorporated into the agreements in order to provide the FBI an enforcement
mechanism to ensure the regional laboratories meet anticipated performance
levels. 29




       27
          The FBI’s Regional Mitochondrial DNA Program has been allotted dedicated
funding since it was first authorized by Congress in FY 2003. This funding was originally
established at $1 million per laboratory per year. Once the Connecticut Department of
Public Safety was removed from the Regional Mitochondrial DNA Program, its funding was
redirected. This allowed for each of the three remaining laboratories to be provided
$1,005,000.
       28
          FBI Laboratory personnel told us that mitochondrial DNA casework was halted in
the New Jersey laboratory because both of the examiners went on maternity leave around
the same time. Although one examiner later returned, quality assurance standards
necessitate that two examiners are required for the issuance of a results report; one to
work the case and produce the report, and the second to review the work of the first
examiner. We were told that the FBI Laboratory paid to train biologists at the New Jersey
laboratory to perform examinations, but none of the biologists were able to successfully
complete the examiner training.

       29
           According to the FBI Laboratory, two regional mitochondrial DNA laboratories can
sufficiently process the yearly number of state submissions. Therefore, the FBI Laboratory
does not foresee expanding this program.


                                            26
       The 120 cases–per-year metric was intended to be a good faith
estimate; however, in its FY 2012 cooperative agreements with both the
Minnesota and Arizona laboratories, the FBI Laboratory developed a
mechanism to minimize payments in the event of a future unforeseen
stoppage of work at the regional laboratories. In the agreements, the FBI
Laboratory reserves the right to withhold a percentage of the reimbursement
for salary, supplies, or other items if a regional laboratory becomes unable
to conduct mitochondrial DNA analysis. Exhibit 14 explains the tiered
approach that would be implemented in this scenario.

 EXHIBIT 14: PERCENTAGE OF FUNDING WITHHELD IN THE EVENT
                  OF A STOPPAGE OF WORK

           Period of Time Without                 Percentage of Funding
         Mitochondrial DNA Analysis:                    Withheld:
              90 Days (3 months)                           25%
             180 Days (6 months)                           50%
         270+Days (9 months or more)                      100%
      Source: The FBI Laboratory’s Regional Mitochondrial DNA Program Agreements

Laboratory Information Management System Efforts

       As of June 2012, the FBI Laboratory does not have an automated or
electronic means to track evidence or capture forensic examination data.
The FBI Laboratory manages the flow of evidence throughout the laboratory
in a largely paper-based process, with a limited “in and out” electronic
database that tracks when an item enters the laboratory for testing, when
analyses are performed, and when the item leaves the laboratory. However
this electronic database does not track when evidence enters and exits
specific units.

       According to the FBI Laboratory, the lack of a laboratory information
management system hinders its ability to provide service to FBI field agents,
other Department of Justice components, and domestic and international law
enforcement partners. Specifically, the FBI Laboratory states that the
inability to electronically monitor business activity and laboratory processes
generates customer response delays and allows the sources of delays and
backlogs to remain undetected. Further, the FBI Laboratory asserts that the
time consuming evidence-tracking process is a burden on all levels of FBI
personnel and external partners. Therefore, we believe that this burden can
negatively affect the identification of missing persons, prosecution of
criminals, and identification of terrorist threats.




                                        27
       Since 2003, the FBI Laboratory has spent at least $14 million in
pursuit of a laboratory information management system. In September
2003, the FBI awarded a contract to implement a commercial off-the-shelf
system to JusticeTrax, Inc. However, in March 2006, the FBI terminated the
contract because the contractor could not meet specific FBI security
requirements. This resulted in a loss of nearly $1.2 million in development
costs. 30 Exhibit 15 details the FBI Laboratory’s total estimated expenditures
on the JusticeTrax project from September 2003 – March 2006.

      EXHIBIT 15: THE FBI LABORATORY’S TOTAL PAYMENTS TO
        JUSTICETRAX FROM SEPTEMBER 2003 – MARCH 2006

                              Expense                                 Amount
            Personnel and Training                                     $651,083
            Equipment                                                  $205,136
            Termination Agreement                                      $523,932
            Equipment Salvaged                                       ($205,136)
            Total Loss Incurred by the FBI                          $1,175,015
            Source: U.S. Department of Justice Office of the Inspector General, The
            Federal Bureau of Investigation’s Implementation of the Laboratory
            Information Management System, Audit Report 06-33 (June 2006), 16.

      Following the attempt to implement a commercial off-the-shelf system,
the FBI Laboratory decided to develop its own laboratory information
management system, known as INNOVARi. In our previous report, we noted
INNOVARi was experiencing numerous problems, including stop-work delays,
information portal deficiencies, and failures during pilot testing,
disagreements between the FBI Laboratory and the FBI’s Office of the Chief
Information Officer, and claims that a contractor supporting a portion of the
information portal project was not providing an adequate level of customer
support. As of December 2011, nearly $13.3 million was spent on the
INNOVARi project. Exhibit 16 details the FBI Laboratory’s total estimated
expenditures on the INNOVARi project in FYs 2005 through 2011.




       30
          U.S. Department of Justice Office of the Inspector General, The Federal Bureau of
Investigation’s Implementation of the Laboratory Information Management System, Audit
Report 06-33 (June 2006), i.


                                              28
EXHIBIT 16: THE FBI LABORATORY’S ESTIMATED TOTAL INNOVARI
           EXPENSES FROM FYs 2005 THROUGH 2011 31

                      Expense                                           Amount
   Transfer from the FBI Laboratory                                        $1,000,000
   Business Process Mapping Expenses                                      $11,007,079
   Contractor Support                                                        $984,000
   Hardware                                                                  $108,397
   Software                                                                  $154,180
   Total Estimated Expenses                                              $13,253,656
    Source: The FBI Laboratory as of December 2011

       In April 2010, the FBI Laboratory performed an assessment of
laboratory information management systems. The objective of the
assessment was to determine the feasibility of a commercial off-the-shelf
solution for the FBI Laboratory, and to compare the commercial solutions to
existing internal solutions. This assessment concluded that despite
advances in INNOVARi, it was not in the FBI Laboratory’s best interest to
continue with INNOVARi. The assessment also determined that the FBI
Laboratory should not be developing software if other laboratory
management software already exists. Despite this assessment, the FBI
Laboratory continued INNOVARi development and exercised the FY 2011
option on the INNOVARi service contract at a cost of over $2.8 million.
Ultimately, FBI Laboratory management decided to end INNOVARi
development by not exercising the FY 2012 option year for the INNOVARi
service contract.

      In October 2011, the FBI Laboratory Assistant Director told us that the
FBI Laboratory ended the INNOVARi project because of the projected costs
of developing, implementing, and maintaining the project. He said that the
INNOVARi platform was not an ideal solution for the FBI Laboratory because
it was not initially developed for laboratory use, but rather was based on
business process mapping software that was retrofitted to perform

       31
           The estimates were calculated by the Contracting Officer Technical
Representative, who based the estimates on the purchase orders under the INNOVARi
contract. In our prior report, we identified a $1 million transfer from the FBI Laboratory to
the Chief Information Officer. According to the INNOVARi Program Manager, the transfer
was essential to securing INNOVARi development funds and was used to purchase licenses
for business process management software. The Contracting Officer Technical
Representative excluded the $1 million transfer from the FBI Laboratory because the
representative did not know how the transfer was applied to INNOVARi. Because the
INNOVARi Program Manager identified this cost as a project cost and indicated it was
essential to the INNOVARi development, we included the $1 million transfer as part of the
INNOVARi costs.


                                             29
laboratory information management system functions. The FBI Laboratory
Assistant Director explained that INNOVARi’s business process mapping and
workflow modeling was too specific at the forensic unit level for an effective
initial implementation. Further, the FBI Laboratory Assistant Director
emphasized that laboratory information management system software must
focus on tracking evidence, whereas INNOVARi focused primarily on
managing FBI Laboratory’s resources.

      The FBI Laboratory Assistant Director told us that despite the decision
to cancel future development of INNOVARi, the FBI Laboratory can extract
several value-added benefits from the project. Specifically, the INNOVARi
project developed many business process maps of specific laboratory units,
as well as a generic work-flow map that will assist in the development of a
new laboratory information management system. However, the FBI
Laboratory Assistant Director could not estimate the dollar amount of these
benefits.

      According to the FBI, one of the central problems undermining the
INNOVARi project was the lack of a rigorously applied FBI Information
Technology Governance Framework during the initial phases of the project. 32
Therefore, according to the FBI, the new laboratory information
management system effort - eLAB -will follow the FBI’s Lifecycle
Management Framework, which is intended to provide a standardized,
repeatable, and sustainable process for the “cradle to grave” management,
acquisition, development, operations and maintenance, and disposal of FBI
information technology systems.




      32
          The FBI’s Information Technology Governance Framework is a formal mechanism
that regulates the management of information technology investments and projects by
ensuring that they are prioritized, comply with the FBI’s Lifecycle Management Framework,
and are properly controlled and monitored. According to the FBI, the Information
Technology Governance Framework requires reviews at key lifecycle milestones. The
reviews include evaluations of technical requirements, financial feasibility, and project
management. Milestones, sometimes referred to as “gates,” mark critical transition points
in the product development life cycle and collectively are used as the mechanism for
executive management control and direction, decision-making, coordination, and
confirmation of successful information technology project performance.


                                           30
eLAB Implementation Process

      The FBI Laboratory assigned a program manager with previous
success implementing an FBI information technology system to oversee the
eLAB project. 33 The program manager is fully responsible for the execution
of the project, including developing a strategy, building a team, executing
the contract, managing the contract, and ensuring the project’s successful
completion.

      In November 2011, the eLAB Program Manager submitted a mission
needs statement to FBI information technology management, which is
responsible for ensuring that the project addresses a genuine gap in FBI
business operations, and that the FBI Laboratory has identified the resources
necessary to support the future project. FBI management subsequently
determined that eLAB will address a genuine gap in FBI business operations,
provide end-to-end electronic evidence tracking capability, and improve the
FBI Laboratory’s management of evidence tracking and forensic
examinations. 34

      The FBI Laboratory is in the early stages of developing eLAB and in
June 2012 issued a request for proposals for the development of eLAB,
which includes eLAB project requirements. Further, the FBI Laboratory’s FY
2012 budget includes $4 million for the development of eLAB. The program
manager estimated that a contract for a commercial off-the-shelf product
should be awarded by the summer of 2012 and that the first phase of eLAB
can be delivered to the FBI Laboratory 6 to 9 months after the contract is
awarded.

     According to the FBI, the inclusion of an experienced program
manager and adherence to the structure of both the Information Technology
Governance Framework and the Lifecycle Management Framework will
improve the likelihood of project success. While the FBI Laboratory‘s

       33
          Prior to November 2011, the program manager worked in the CODIS Unit where
he managed the development of new capabilities to the National DNA Index System
database.
       34
            According to the FBI Laboratory, additional benefits of eLAB will include: (1) a
reduction of time spent executing manual processes in every aspect of the forensic analysis
lifecycle; (2) decreased administrative time associated with the analysis process; (3) the
ability to evaluate trends in evidence and casework to support resource reallocations among
FBI Laboratory forensic disciplines; (4) enhanced evidence prioritization to improve FBI
Laboratory response times; (5) information necessary to manage turnaround times,
backlogs, and inventory more effectively; (6) information exchange with Sentinel, the FBI’s
new enterprise wide case management system; and (7) an overall increase in the FBI
Laboratory’s capacity to produce quality results.


                                            31
approach to eLAB appears to be more structured than previous attempts to
implement a laboratory information management system, we have concerns
based on the past unsuccessful efforts to develop such a system, and based
on the FBI Laboratory’s INNOVARi service contract expenditures made after
the FBI Laboratory’s own assessment determined that it should cease
INNOVARi development. To improve the likelihood of success, we
recommend that the FBI ensure that the eLAB project has an approved
budget, software package, and implementation timeline.

External Factors Potentially Affecting the DNA Units

      A recent decision of the U.S. Supreme Court may affect the ability of
forensic laboratories to maintain their workload. In Williams v. Illinois,
567 U.S. ___ (2012), the Court held that a defendant’s right to confront the
witnesses against him, which is guaranteed by the Sixth Amendment to the
Constitution, was not violated when an expert witness for the prosecution
based an opinion in part on a laboratory report prepared by non-testifying
analysts, even though the report was not admitted into evidence and the
defense was not provided an opportunity to confront the analysts who
prepared it. The Court did not have a unified rationale for its decision, which
was decided by a narrow majority.

       FBI Laboratory officials told us that, prior to the Court’s decision, the
Williams case had created a significant amount of uncertainty about the
circumstances under which an expert witness may base an opinion on
laboratory results about which the expert has no firsthand knowledge, and
that this issue affects how the FBI Laboratory processes DNA evidence.
Traditionally, biologists (analysts) in the FBI Laboratory forensic DNA units
have removed genetic material from evidentiary items and performed
necessary tests on these genetic materials to generate DNA profiles.
Examiners (expert witnesses) then review and interpret the profiles, and
they issue reports based on their analysis. As of June 2012, for the majority
of its cases, the FBI used a “pool” system for biologists where many different
biologists work on a particular piece of evidence, but only one examiner
analyzes the DNA profile generated. The FBI has found this method to be an
efficient way to manage the DNA units’ workflows.

      However, FBI Laboratory officials said that they took precautions while
the Williams decision was pending so that they would have been prepared
were the Supreme Court to have ruled that all persons who process a piece
of forensic evidence could be required to testify when their work is used by
an expert witness to draw a conclusion at trial. Specifically, these officials
told us that as early as October 2011, both DNA units began training
examiners to conduct their own DNA testing and to perform the analysis


                                      32
from the profiles generated from the exam, thus limiting the number of
personnel working on a particular piece of evidence. 35 According to the FBI,
the cross-training takes approximately 2-3 months per individual, and the
new method for analysis and review decreases the number of DNA profiles
an examiner can analyze and report each month by approximately half. To
compensate, the DNA units plan to increase the number of examiners on
staff in order to ensure that the units maintain their current turnaround
times and case output.

       When we asked FBI Laboratory officials for their initial reaction to the
Supreme Court decision, they told us that they intend to continue cross-
training examiners as biologists. Specifically, they stated that the Williams
decision leaves a significant degree of uncertainty which could increase the
likelihood in which the “pool” system for DNA processing will continue to be
questioned in court cases and subsequent appeals. As such, FBI Laboratory
officials believe that having examiners perform both the DNA analysis and
review can simplify the prosecutor’s presentation of DNA results when they
are introduced at trial, while simultaneously helping the FBI Laboratory to
reduce processing disruptions. The FBI Laboratory expects to have fully
cross-trained examiners by June 2013.

      Additionally, in May 2010, the FBI Laboratory created a CODIS Core
Loci Working Group to evaluate the necessity for additional loci. As a result,
the FBI has recommended the expansion of the number of “core loci” in
CODIS from 13 to 24. As of May 2012, CODIS uses a set of 13 genetic
markers - the core loci - to generate individual DNA profiles. We note that
due to differing DNA analysis techniques, the expansion of the number of
core loci is only relevant for nuclear DNA testing. According to the FBI, the
addition of new core loci will reduce the likelihood that individuals with a
similar genetic composition are mistakenly identified in both criminal and
missing person cases. Furthermore, the additional core loci will enhance
compatibility with international standards. The CODIS database custodian
specified that the additional loci would not necessitate the lengthy validation
process that the original loci underwent because the additional loci have
been validated by other U.S. state and international forensic laboratories.
Based on research and discussion with an FBI subject matter expert we
think it is unlikely that increasing the number of core loci will have an effect
on the DNA processing speed in the Nuclear DNA Unit.




       35
          This training refreshed and recertified examiners on necessary skills required to
perform their own biological testing of evidence and DNA samples.


                                             33
Conclusion and Recommendation

       The FBI Laboratory’s forensic DNA casework backlog has been
significantly reduced since our prior report. We found that the FBI
Laboratory has effectively eliminated the Nuclear DNA Unit case backlog,
which we note is a significant achievement. This progress can be attributed
primarily to efficiency improvements and the addition of personnel.
However, while the Mitochondrial DNA Unit’s backlog decreased, we found
that the decrease can be attributed to a decision to no longer automatically
conduct Mitochondrial DNA analysis on all hairs identified on improvised
explosive devices. The FBI said it took these cases out of the queue for
automatic examination because there have been no documented instances
for which probative results were generated from these mitochondrial DNA
examinations. Instead, the Mitochondrial DNA Unit worked together with
TEDAC to revise the unit’s case acceptance policy so that new submissions
to the unit are more likely to yield probative information. These changes to
the TEDAC case acceptance policy, rather than an increase in the number of
cases completed, accounted for the decrease in the backlog. 36

      Through March 2012, the FBI Laboratory spent more than $14 million
in previous attempts to implement a laboratory information management
system. The FBI’s latest effort, eLAB, has an experienced program
manager, has secured initial funding of $4 million, and has adopted the FBI
Information Technology Governance Framework. While we are encouraged
by the initial planning efforts, we seek additional information on the
commercial off-the-shelf software selected, the cost, and specific project
timeline.

     Overall, the FBI Laboratory has undertaken several strategies to
support case contributors and reduce its forensic DNA backlog. However,
because of past difficulties in efforts to implement a laboratory information
management system, we are making one recommendation to improve FBI
Laboratory operations.

We recommend that the FBI:

   1. Ensure that the eLAB project has an approved budget, software
      package, and implementation timeline.



       36
           According to the FBI Laboratory, it is preparing a plan for reviewing historical
cases involving microscopic hairs. Until this plan is finalized, the FBI Laboratory stated that
it is impossible to estimate the effect this review might have on the Mitochondrial DNA or
Nuclear DNA Units.


                                              34
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Federal Bureau of
Investigation (FBI) Laboratory’s internal controls was not made for the
purpose of providing assurance on its internal control structure as a whole.
FBI management is responsible for the establishment and maintenance of
internal controls.

      Through our audit testing, we did not identify any deficiencies in the
FBI Laboratory’s internal controls that are significant within the context of
the audit objectives or, based upon the audit work performed, that we
believe would affect the FBI’s ability to effectively and efficiently operate, to
correctly state financial and performance information, or to ensure
compliance with laws and regulations.

      Because we are not expressing an opinion on the FBI Laboratory’s
internal control structure as a whole, this statement is intended solely for
the information and use of the FBI Laboratory. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                       35
        STATEMENT ON COMPLIANCE WITH LAWS AND
                     REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, records, procedures, and
practices to obtain reasonable assurance that FBI management complied
with federal laws and regulations for which noncompliance, in our judgment,
could have a material effect on the results of our audit. FBI management is
responsible for ensuring compliance with applicable federal laws. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:

  •    42 U.S.C. §14132 (2006).
  •    42 U.S.C. §14133 (2004).

      Our audit included examining, on a test basis, the FBI’s compliance
with the aforementioned laws that could have a material effect on FBI
operations, through interviewing personnel at the FBI Laboratory,
Information Technology Branch, and Indian Country Crimes Unit; analyzing
forensic DNA case backlog data; reviewing cooperative agreements and
backlog reduction plans; and calculating statistics on the forensic DNA units’
backlog and turnaround times. Nothing came to our attention that caused
us to believe that the FBI was not in compliance with the aforementioned
laws.




                                      36
                                                              APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      We audited the FBI Laboratory’s backlog of forensic DNA cases. The
objectives of this audit were to: (1) verify the total number of forensic DNA
cases that remain unprocessed by the FBI Laboratory, (2) evaluate the
status of the implementation of a laboratory information management
system, (3) examine the effect of outsourcing agreements on the overall
DNA forensic casework backlog, and (4) assess any impending external
factors that may impact the ability of the forensic DNA units to maintain
their workload.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       We reviewed historical performance data, information technology
system implementation efforts, backlog mitigation plans, case acceptance
policies, and cooperative agreements at the FBI Laboratory’s forensic DNA
units designed to reduce the FBI Laboratory’s forensic DNA backlog. The
audit generally covered, but was not limited to, FBI Laboratory forensic DNA
statistics from October 2007 through March 2012.

      Audit work was conducted at both FBI headquarters in Washington,
D.C., and the FBI Laboratory located in Quantico, Virginia. We interviewed
FBI Laboratory senior management and FBI Laboratory Division personnel
involved with the Nuclear and Mitochondrial DNA Units. We discussed
backlog statistics, turnaround times, automation efforts, cooperative
agreements, case acceptance policies, INNOVARi, eLAB, and staffing
enhancements. We interviewed personnel from the Indian Country Crimes
Unit concerning the Memorandums of Agreement with the Arizona
Department of Public Safety and the South Dakota Division of Criminal
Forensic Laboratory. We spoke with FBI Information Technology Branch


                                     37
personnel and the eLAB Program Manager concerning INNOVARi and the
successor system, eLAB. We also interviewed the TEDAC Director about
changes to case acceptance policies governing which samples the DNA units
will analyze.

       In order to determine the number of forensic DNA cases that remained
unprocessed at the FBI Laboratory, we selected four historical points in time
to compare a full active case listing for each unit to the number of cases
reported to FBI management on the monthly scorecard. We relied on
computer-generated data from the Nuclear and Mitochondrial DNA Unit’s in-
unit case management systems. Based on our testing, we found that both
the Nuclear and Mitochondrial DNA Units had less than a 3 percent margin of
error when reporting their backlog statistics to management; therefore, we
determined that both the Nuclear and Mitochondrial DNA Units are
accurately reporting the backlog within their respective units. We relied on
the unit-provided statistics when our own testing was not conducted.
Although we did not assess each unit’s information system’s control or
reliability, we do not believe our reliance on these systems’ information
significantly affects the findings and recommendations offered by this report.

       To determine average turnaround time for completed cases, we tested
all cases that were received in each unit from FYs 2008 through 2011. We
calculated the average turnaround time for completed cases in the DNA units
using the cases received by each unit in each fiscal year. We note that
cases may have entered the FBI Laboratory in a different year than the case
enters a DNA unit. We also note that cases may be completed in a later
year than it was received in a DNA unit. For example, the FY 2010 average
turnaround time in the Nuclear DNA Unit includes all cases that were
received in the unit in FY 2010; however, cases that the unit received in FY
2010 may have been accepted at the FBI Laboratory in any prior fiscal year
and may not be completed until FY 2011. The average time in the unit was
calculated by subtracting the date the unit received the evidence from the
date it was reported. The average time evidence is in the FBI Laboratory
before it is received by the unit was calculated by subtracting the date it
entered the FBI Laboratory from the date the unit received the evidence.
FBI Laboratory personnel agreed that the methodology we used fairly
represented the data.

      We compared both the Nuclear and Mitochondrial DNA Units’ staffing
levels in August 2010 to March 2012 by using unit organizational charts and
by interviewing unit managers.




                                     38
                                                                              APPENDIX II

THE FEDERAL BUREAU OF INVESTIGATION’S RESPONSE TO
THE OFFICE OF THE INSPECTOR GENERAL’S AUDIT REPORT
                 RECOMMENDATION
                                                           U.S. Department of Justice




                                                           Federal Bureau of Investigation

                                                           Washington, D. C. 20535-0001

                                                           September 20, 2012


 The Honorable Michael E. Horowitz
 Inspector General
 Office of the Inspector General
 U.S. Department of Justice
 950 Pennsylvania Avenue, Northwest
 Washington, D.C. 20530


 Dear Mr. Horowitz:

              The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
 and respond to your office's report entitled, Audit of the Federal Bureau of Investigation
 Laboratory's Forensic DNA Case Backlog.

               We are pleased your office concluded the FBI Laboratory's effective elimination of
 the backlog by the Nuclear DNA Unit was a "significant achievement." As noted, the FBI
 Laboratory also has made strategic revisions to the case acceptance policy to decrease the
 Mitochondrial DNA backlog. The FBI remains committed to ensuring the Laboratory promptly
 evaluates evidence suitable for DNA examination.

                In conclusion, the FBI concurs with your one recommendation. We appreciate the
 professionalism exhibited by your staff as they worked to complete this review.


                                                     Sincerely yours,




                                                     D. Christian Hassell
                                                     Assistant Director
                                                     Laboratory Division
Enclosure


                                              39
Audit of the Federal Bureau of Investigation Laboratory’s Forensic DNA Case Backlog

Recommendation #1 - “Ensure the eLab project as an approved budget, software package, and
implementation timeline.”

FBI Response to Recommendation #1: Concur – The FBI Laboratory is currently undergoing
source selection for the eLAB project. Once awarded, the FBI Laboratory will provide the OIG
with information about the software package selected, the planned budget for the award, and the
timeline for implementation of the software into Laboratory operations.




                                                2




                                              40
                                                            APPENDIX III

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the FBI. The FBI’s
response is incorporated in Appendix II of this final report. The following
provides the summary of actions necessary to close the report.

Summary of Actions Necessary to Close the Report

   1. Resolved. The FBI concurred with our recommendation to ensure the
      eLAB project has an approved budget, software package, and
      implementation timeline. The FBI stated in its response that it is
      currently undergoing source selection for the eLAB project. Once
      awarded, the FBI Laboratory will provide the OIG with information
      about the software package selected, the planned budget for the
      award, and the timeline for implementation of the software.

      This recommendation can be closed when we receive and review the
      approved budget, software package, and implementation timeline for
      the eLAB project.




                                      41
